Nos. 19-1039
In The

Supreme Court of the United States
PennEast Pipeline Company LLC,
Petitioner,
v.
State of New Jersey, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
BRIEF OF THE UNITED ASSOCIATION OF
JOURNEYMEN AND APPRENTICES OF THE
PLUMBING AND PIPE FITTING INDUSTRY OF
THE UNITED STATES AND CANADA, AFL-CIO;
INTERNATIONAL UNION OF OPERATING
ENGINEERS; INTERNATIONAL BROTHERHOOD
OF TEAMSTERS; LABORERS’ DISTRICT
COUNCIL OF EASTERN PENNSYLVANIA; AND
NEW JERSEY STATE BUILDING AND
CONSTRUCTION TRADES COUNCIL AS
AMICI CURIAE IN SUPPORT OF PETITIONER
Ellen O. Boardman*
Anna Friedlander
Michael A. Gillman
O’Donoghue & O’Donoghue LLP
5301 Wisconsin Ave, NW
Suite 800
Washington, DC 20015
*Counsel of Record
Counsel for Amici Curiae
Mosaic - (301) 927-3800 - Cheverly, MD

49261_Ltrhd.indd

1

6/11/08

12:44:0

i
TABLE OF CONTENTS

Page
STATEMENT OF INTEREST............................
1
SUMMARY OF ARGUMENT.............................

3

ARGUMENT........................................................

5

I. THE DECISION BELOW CONFLICTS
WITH THE ORDINARY MEANING OF
THE NATURAL GAS ACT........................

5

II. THE DECISION BELOW INTERFERES
WITH THE NGA’S PURPOSE TO
FACILITATE RELIABLE AND
EFFICIENT NATURAL GAS SUPPLY
NATIONWIDE............................................

9

III. THE DECISION BELOW WOULD
HAVE DETRIMENTAL EFFECTS FOR
SKILLED CONSTRUCTION WORKERS
AND LOCAL COMMUNITIES, WHICH
OTHERWISE BENEFIT FROM NEW
NATURAL GAS INFRASTRUCTURE......

14

A. The Decision Below Threatens the
Livelihoods of Thousands of Americans
Engaged in Natural Gas Infrastructure
Construction and Skilled Union Job
Opportunities in the Industry...............

14

B. The Decision Below Would Deprive
Local Communities of Economic
Benefits and Energy Savings................

17

CONCLUSION.....................................................

21

iii
TABLE OF AUTHORITIES

Page

Advocate Health Care Network v. Stapleton,
137 S.Ct. 1652 (2017)....................................

8

California v. Southland Royalty Co.,
436 U.S. 519 (1978).......................................

10

Carcieri v. Salazar,
555 U.S. 379 (2009).......................................

5

Director, Officer of Workers’ Comp. Programs,
Dep’t of Labor v. Greenwich Collieries,
512 U.S. 267 (1994).......................................

5

Dolan v. U.S. Postal Service,
546 U.S. 481 (2006).......................................

5

In re PennEast Pipeline Co. LLC,
938 F.3d 96 (3d Cir. 2019)............................

9, 12

Kohl v. United States,
91 U.S. 367 (1875).........................................

6

NAACP v. Fed. Power Comm’n,
425 U.S. 662 (1976).......................................

9

PennEast Pipeline Co., LLC,
164 FERC ¶ 61,098 (2018)............................

11

Schneidewind v. ANR Pipeline Co.,
485 U.S. 293 (1988).......................................

10

Thatcher v. Tennessee Gas Transmission Co.,
180 F.2d 644 (5th Cir. 1950).........................

11

U. S. ex rel. & for Use of Tennessee Valley
Auth. v. Powelson,
319 U.S. 266 (1943).......................................

6

iv
TABLE OF AUTHORITIES—Continued

Statutes & Regulations

Page

15 U.S.C. § 717c................................................

10

15 U.S.C. § 717f.................................................

10

15 U.S.C. § 717f(b)............................................

10

15 U.S.C. § 717f(e)............................................

10

15 U.S.C. § 717f(h)............................................ passim
15 U.S.C. § 717k................................................

10

16 U.S.C. § 814 .................................................

8

Pub. L. No. 102-486, 106 Stat. 2776 (1992).....

8

18 C.F.R. § 157.14(a)(15)..................................

10

Other Authorities
Brief of Amici Curiae Interstate Natural Gas
Association of America, et al, In re
PennEast Pipeline Co., No. 19-1191 (3d Cir.
May 15, 2019)................................................

12

Energy Market Savings: Report and Analysis,
Concentric Energy Advisors, Inc. (March
2015), https://penneastpipeline.com/
ConcentricEconomicStudy/concentriceconomic-study.pdf........................................

18

Estimated Energy Market Savings from
Additional Pipeline Infrastructure Serving
Eastern Pennsylvania and New Jersey:
Update for Winter 2017/2018, Concentric
Energy Advisors, Inc. (April 2018),
https://penneastpipeline.com/wp-content/
uploads/2018/05/PennEast_Concentric_
Update_FINAL_4-24-2018.pdf.....................

19

v
TABLE OF AUTHORITIES—Continued

Exec. Order No. 13604, 77 Fed. Reg. 18887
(Mar. 22, 2012)..............................................

Page
13

Exec. Order No. 13766, 82 Fed. Reg. 8657
(Jan. 24, 2017)...............................................

13

Exec. Order No. 13807, 82 Fed. Reg. 40463
(Aug. 15, 2017)..............................................

13

Federal Energy Regulatory Commission
Declaratory Order, 170 FERC ¶ 61,064,
Docket No. RP20-41-000 (Jan. 30, 2020)..... passim
H.R. Rep. No. 102-474, 99-100 (1992)..............

8

PennEast Pipeline Project Economic Impact
Analysis, Econsult Solutions, Inc., Drexel
University School of Economics
(Feb. 2015)............................................
15, 17, 19
Plaintiff’s Response in Support of its Motion
for an Order of Condemnation and for
Preliminary Injunction, Columbia Gas
Transmission, LLC v. 0.12 Acres of Land,
More or Less, No. 1:19-cv-01444-GLR
(D.Md. July 8, 2019)......................................

12

S. Rep. No. 80-429 (1947).................................

7, 8

U.S. Department of Energy, U.S. Energy
Information Administration:
Electric Power Monthly with Data for
December 2019 (Feb. 26, 2020),
https://www.eia.gov/electricity/monthly/
current_month/epm.pdf............................

18

One in Three U.S. Households Faces a
Challenge in Meeting Energy Needs
(Sept. 19, 2018), https://www.eia.gov/
todayinenergy/detail.php?id=37072.........

18

vi
TABLE OF AUTHORITIES—Continued

Page
U.S. Department of Transportation, Pipeline &
Hazardous Materials Safety Administration:
Pipeline Replacement Background,
https://www.phmsa.dot.gov/data-andstatistics/pipeline-replacement/pipelinereplacement-background...........................

19-20

Pipeline Replacement Updates,
https://opsweb.phmsa.dot.gov/pipeline_
replacement/by_decade_installation.asp..

20

1
STATEMENT OF INTEREST
The United Association of Journeymen and Apprentices of the Plumbing and Pipe Fitting Industry of the
United States and Canada, AFL-CIO (“UA”), is an international labor organization representing over
350,000 plumbers, pipefitters, sprinkler fitters, service
technicians, and welders. The UA’s membership includes 10,000–11,000 workers who perform pipefitting
and welding on pipelines. UA pipeliners have worked
on every major pipeline project in the United States.
The International Union of Operating Engineers
(“IUOE”) is a diversified trade union that primarily
represents operating engineers, who work as heavy
equipment operators, mechanics, and surveyors in the
construction and pipeline industries; as well as stationary engineers, who work in operations and maintenance in building and industrial complexes, and in
the service and petrochemical industries. The IUOE
has approximately 400,000 members and 110 local
unions in the U.S. and Canada. Operating engineers
operate, maintain, and repair all manner of heavy
equipment on pipeline projects.
Founded in 1903, the International Brotherhood of
Teamsters (“Teamsters”) represents more than 1.4
million hardworking men and women across the U.S.,
Canada, and Puerto Rico. Teamster members work in
a wide variety of industries, including the construction industry. Approximately 3,000 Teamster members nationwide regularly work on pipeline projects,
moving material and people to and from construction
sites, as well as around construction sites.
The Laborers’ District Council of Eastern Pennsylvania is a council of local unions affiliated with the
Laborers’ International Union of North America

2
(“LIUNA”) having territorial jurisdiction in 29 counties in Central and Northeastern Pennsylvania, including the counties through which the Penn­
East
Pipeline would be constructed. Founded in 1903,
LIUNA is a general workers union representing over
half-a-million employees in the construction industry
and in public service in the United States and Canada.
As the union of record in both Canada and the United
States holding undisputed jurisdiction over the craft of
construction laborer, LIUNA represents the men and
women throughout North America who are responsible for constructing the buildings, roads, bridges, highways, energy, and other critical infrastructure that
makes life in the United States and Canada possible.
On pipelines, LIUNA members perform a wide variety
of tasks related to clearing the right of way, site preparation, pipe placement, and clean-up and restoration
of the landscape after the pipeline is buried.
The New Jersey State Building and Construction
Trades Council (“NJ B&CTC”) coordinates activity and
provides resources to 15 affiliated trade unions in the
construction industry. It represents 13 Local Building
Trades Councils, more than 100 local unions and over
150,000 rank and file members within New Jersey—including many who are members of the UA, IUOE, LIUNA, and Teamsters who regularly perform work on
pipeline projects in New Jersey and the surrounding
area. Created in 1903, the NJ B&CTC has helped its
affiliated building trades unions to make job sites safer,
deliver apprenticeship and journey-level training, organize new workers, support legislation that affects
working families, and assist in securing improved wages, hours, and working conditions through collective
bargaining and project labor agreements.
Amici (collectively referred to herein as the “Pipeline Crafts”) represent the thousands of union work-

3
ers who would perform all aspects of pipeline construction on the Penn­East Pipeline (the “Project” or
the “Pipeline”). Penn­
East has committed to constructing the Pipeline under the terms of the National Pipeline Agreement (“NPLA”), a collective-bargaining agreement that would require contractors
hired to construct the Pipeline to utilize members of
the Pipeline Crafts to perform the work. The NPLA
requires contractors to pay wages that allow workers
to earn a high standard of living, health benefits for
themselves and their families, and pension contributions for all hours worked. Under the NPLA, employers also make hourly contributions to training
funds jointly run by the Pipeline Crafts and signatory contractors, which ensure that workers are up-todate on the skills necessary to build the safest pipelines and allow new members to enter the trade and
develop those skills.
The Petitioner and Respondents have consented to
the filing of this brief.
SUMMARY OF ARGUMENT
Section 7(h) of the Natural Gas Act (“NGA”) grants
“the right of eminent to domain” to “any holder of a
certificate of public convenience and necessity” issued
by the Federal Energy Regulatory Commission
(“FERC”) in order to secure “the necessary land or
other property” to build, operate, and maintain natural gas infrastructure. 15 U.S.C. § 717f(h). For decades, this transfer of “the right of eminent domain”
to private companies was understood by all involved
to include the right to use eminent domain over private and State-owned land alike. The text, statutory
history, and context of Section 7(h), as well as related
precedent, confirm that this interpretation was correct. The full grant of eminent domain to natural gas

4
companies is an extension of federal power and was
added to the NGA in recognition of private companies’ necessary role in developing U.S. natural gas
infrastructure.
Nevertheless, the Third Circuit, in its decision below, incorrectly held that a State’s 11th Amendment
sovereign immunity prevents a private company
from initiating a condemnation proceeding concerning State land despite the NGA’s grant of the federal
government’s power of eminent domain to such companies. The decision below thus allows any State,
on its own initiative, to block construction of a project permitted under the NGA for any reason or for
no reason at all, as long as the State has an ownership interest in any of the land needed for the project. It thus seriously dilutes the NGA’s grant of the
federal eminent domain authority to private companies seeking to construct necessary natural gas infrastructure and renders it useless as to lands in
which a State has a property interest. It effectively
allows States to reject the reasoned, statutorilyguided judgment of FERC in favor of their own evaluation of a project, which need not be based on anything other than politics.
This result directly conflicts with federal policy favoring efficiency in the pipeline approval process. It
will have serious and long-lasting negative consequences not only for natural gas companies, but also
for the socioeconomic welfare of thousands of American workers and consumers, and the overall condition of U.S. energy infrastructure in the immediate
and long-term future. Amici urge the Court to grant
certiorari on the petition in order to restore the correct interpretation and application of the NGA so that
approval and construction of natural gas infrastructure remains accessible and efficient going forward.

5
ARGUMENT
I. THE DECISION BELOW CONFLICTS WITH
THE ORDINARY MEANING OF THE NATURAL GAS ACT.
Statutory words and phrases must be interpreted
according to their “ordinary meaning . . . as understood when the [statute] was enacted.” Carcieri v.
Salazar, 555 U.S. 379, 388 (2009). See also Director,
Officer of Workers’ Comp. Programs, Dep’t of Labor v.
Greenwich Collieries, 512 U.S. 267, 275 (1994) (“This
Court presumes that Congress intended [a statutory]
phrase to have the meaning generally accepted in the
legal community at the time of enactment.”). Any such
interpretation “depends upon reading the whole statutory text, considering the purpose and context of the
statute, and consulting any precedents or authorities
that inform the analysis.” Dolan v. U.S. Postal Service, 546 U.S. 481, 486 (2006).
In this case, Section 7(h) of the Natural Gas Act establishes a procedure under which “any holder of a
certificate of public convenience and necessity” that is
unable to agree on compensation for “the necessary
right-of-way” and “the necessary land or other property” to fulfill the certificate, “may acquire the same
by the exercise of the right of eminent domain.” 15
U.S.C. § 717f(h) (emphasis added). This grant of the
power of eminent domain is unqualified, providing no
special rule applicable to State-owned lands.
Furthermore, it is clear that Congress understood
“the right of eminent domain” to include the right to
file a condemnation suit against a State. By the time
Congress added Section 7(h) to the NGA, it was well
established that “[t]he right of the United States to
exercise the power of eminent domain is ‘complete in

6
itself’ and ‘can neither be enlarged nor diminished by
a State.’ ” U. S. ex rel. & for Use of Tennessee Valley
Auth. v. Powelson, 319 U.S. 266, 279 (1943) (quoting
Kohl v. United States, 91 U.S. 367, 374 (1875)). See
also Kohl, 91 U.S. at 374 (holding that no State may
“prescribe the manner in which [eminent domain]
must be exercised. The consent of a State can never be
a condition precedent to its enjoyment. Such consent
is needed only, if at all, for the transfer of jurisdiction
and of the right of exclusive legislation after the land
shall have been acquired.”). Therefore, when Congress gave private parties “the . . . right of eminent
domain” in Section 7(h) of the NGA, the ordinary
meaning of that grant included the limitation on
States’ ability to resist it.
In addition, the context and purpose of Section 7(h)
clearly show that Congress intended for it to authorize
private certificate holders to utilize eminent domain
against States and private entities alike, on the same
basis as the federal government. The legislative history
is replete with evidence that Congress intended for Section 7(h) to give private companies that right specifically because States, at the time, were interfering with
private pipeline companies’ attempts to construct natural gas pipelines that had received certificates of public
convenience and necessity from FERC and for the purpose of preventing States from doing so. See Petition for
Writ of Cert. at 6-11; FERC Declaratory Order, 170
FERC ¶ 61,064, Dkt. No. RP20-41-000, ¶¶ 40-41 (Jan.
30, 2020) (hereinafter, “FERC Decl. Order”).
One need look no further for this context and purpose than the Senate Committee on Interstate and
Foreign Commerce’s report recommending passage of
Section 7(h). The Committee’s report presents, as the
sole justification for its recommendation, the problem

7
of States denying certificate holders the right to construct natural gas pipelines. See S. Rep. No. 80-429
(1947). Thus, the Committee recommended that Congress, “in carrying out its constitutional authority to
regulate interstate commerce should correct . . . the
[NGA] by passage of . . . the right of eminent domain
[for] those natural gas companies which have qualified under the [NGA] to carry out and perform the
terms of any certificate of public convenience and necessity.” Id. at 3. The Committee’s report concludes
that it would “defeat[] the very objectives of the
[NGA],” and FERC’s “exclusive jurisdiction to regulate the transportation of natural gas in interstate
commerce,” if States could “nullif[y]” FERC’s certificates by withholding or requiring additional conditions before granting certificate holders the right of
eminent domain. Id. at 3-4. And yet, 73 years later,
this is the exact outcome the Third Circuit’s decision
yields.
Until the Third Circuit’s decision below, parties involved in eminent domain under the NGA have generally accepted private companies’ ability to utilize it to
obtain all property rights needed—whether from a private party or the State. When the question arose before FERC, the Commission has always held that “the
eminent domain grant to persons holding . . . certificates [under the NGA] applies equally to private and
State lands.” FERC Decl. Order at 27-30 (quoting Tenneco Atlantic Pipeline Co., 1 FERC ¶ 63,203-04 (1977)).
Finally, Congress’s intent and purpose to give certificate holders the full power of eminent domain under Section 7(h) is apparent from other statutory
grants of eminent domain that specifically limit the
use of eminent domain by private parties over State
lands. The Federal Power Act (“FPA”) is the most re-

8
vealing example of this limiting language. Section 7(h)
of the NGA was modeled after Section 21 of the FPA,
16 U.S.C. § 814, which allows a private licensee of a
Commission-approved hydroelectric project to utilize
eminent domain for lands necessary to construct,
maintain, or operate the facility. See S. Rep. No. 80429 at 1. In 1992, Congress passed the Energy Policy
Act of 1992, which, in part, amended Section 21 of the
FPA to carve out “any lands or other property that,
prior to the date of enactment of the Energy Policy Act
of 1992, were owned by a State or political subdivision
thereof and were part of or included within any public
park, recreation area or wildlife refuge established under State or local law” from the lands over which a
hydropower licensee may exert eminent domain. Pub.
L. No. 102-486, 106 Stat. 2776 (1992).1 If Congress
understood the 11th Amendment to prohibit certificate
holders under the NGA and similar laws from bringing
condemnation proceedings against States, the 1992
amendment to the FPA would be unnecessary and confusing.2 See Advocate Health Care Network v. Stapleton, 137 S.Ct. 1652, 1659 (2017) (explaining that “the
presumption [is] that each word Congress uses is there
for a reason” and correct statutory interpretation seeks
to “give effect, if possible to every clause and word of a
statute”). Regardless, Congress did not then nor has it
since added a similar limitation to the NGA.
The hydropower licensee, may, however, still exert eminent
domain over such lands after a public hearing in the affected
community and a finding by FERC that “the license will not interfere or be inconsistent with the purposes for which such lands
or property are owned.” Pub. L. 102-486, 106 Stat. 2776 (1992).
1

See also H.R. Rep. No. 102-474, 99-100 (1992) (explaining
that the original text of Section 21 of the FPA “granted a Federal
power of eminent domain . . . includ[ing] the power to condemn
lands owned by States”).
2

9
In the decision below, the Third Circuit found that
“nothing in the text of the NGA suggests” that Congress intended the NGA to give private companies the
right to bring condemnation suits against States. In
re Penn­East Pipeline Co. LLC, 938 F.3d 96, 100 (3d
Cir. 2019). This statement misinterprets the ordinary
language of the NGA and ignores the normal rules of
statutory interpretation that take into account the
context and purpose of the statute and relevant, related precedent. This Court should grant review to
correct the Third Circuit’s errors of interpretation and
restore the eminent domain rights Congress intended
to give certificate holders under the NGA.
II. THE DECISION BELOW INTERFERES WITH
THE NGA’S PURPOSE TO FACILITATE
RELIABLE AND EFFICIENT NATURAL GAS
SUPPLY NATIONWIDE.
In the words of FERC, the Third Circuit’s decision
would “allow States to nullify the effect of Commission orders affecting State land—and, apparently, private land in which the State has an interest—through
the simple expedient of declining to participate in an
eminent domain proceeding brought to effectuate a
Commission certificate.” FERC Decl. Order at 43.
Not only does this result go against the text, purpose,
and context of the NGA, see Section I supra, but it also
threatens the public interest—at the heart of the
NGA—in ensuring reliable and affordable access to
natural gas across the nation.
The NGA’s principal purpose is to serve the “public
interest” by “promot[ing] the orderly production of
plentiful supplies of . . . natural gas at just and reasonable rates.” NAACP v. Fed. Power Comm’n, 425
U.S. 662, 670 (1976). To serve this goal, the NGA requires any company proposing to build new or expand

10
existing interstate natural gas infrastructure to obtain a certificate of public convenience and necessity
from FERC before doing so. 15 U.S.C. § 717f. The
procedure to obtain a FERC certificate is long and detailed. It requires FERC to find that the proposed action “is or will be required by the present or future
public convenience and necessity” and empowers
FERC to “attach to the . . . certificate and to the exercise of the rights granted thereunder such reasonable
terms and conditions as the public convenience and
necessity may require.” 15 U.S.C. § 717f(e).
FERC’s authority over the certificate continues indefinitely and controls virtually all aspects of the certificate holder’s operations. See Schneidewind v. ANR
Pipeline Co., 485 U.S. 293, 300-01 (1988) (“The NGA
confers upon FERC exclusive jurisdiction over the
transportation and sale of natural gas in interstate
commerce for resale.”). For example, FERC controls
the rates that may apply to natural gas transportation. 15 U.S.C. § 717c. It also has the authority to
ensure that a project is financed in accordance with
the public interest and requires companies to file statements of their financing plans and any proposed issuance of securities. 18 C.F.R. § 157.14(a)(15). Officers
and directors of natural gas companies are prohibited
from profiting from the company’s issuance of securities. 15 U.S.C. § 717k. Certificate holders must also
continue the flow of gas indefinitely and cannot abandon any service or facility without FERC finding that
either the available gas supply is depleted or “the present or future public convenience or necessity permit
such abandonment.” 15 U.S.C. § 717f(b). In the words
of this Court, “the flow of gas [is] a service obligation
imposed by the [NGA].” California v. Southland Royalty, 436 U.S. 519, 525 (1978) (explaining that a natural gas company may not terminate the flow of natural

11
gas even after its private contract to supply the natural gas terminates without FERC approval).
Congress’s delegation of plenary control over the
flow of natural gas and the infrastructure that transports it to FERC through the NGA reinforces its intention that private certificate holders are meant to
constitute an arm of FERC with eminent domain authority equivalent to the federal government. Indeed,
neither FERC nor any other arm of the federal government exercises the federal eminent domain power
to build interstate natural gas infrastructure because
Section 7(h) only authorizes “any holder of a certificate of public convenience and necessity” to do so. See
FERC Decl. Order at 38-39. Section 7(h)’s grant of
eminent domain to natural gas companies is thus necessary to fulfill the NGA’s purpose of ensuring an adequate and affordable supply of natural gas nationwide. See Penn­East Pipeline Co., LLC, 164 FERC
¶ 61,098 at 29 (2018). See also Thatcher v. Tennessee
Gas Transmission Co., 180 F.2d 644, 647 (5th Cir.
1950) (“There is no novelty in the proposition that
Congress in furtherance of its power to regulate commerce may delegate the power of eminent domain to a
corporation, which though a private one, is yet, because of the nature and utility of the business functions it discharges, a public utility . . . .”).
In the decision below, the Third Circuit ignores this
carefully arranged relationship between FERC and
private companies under the NGA. By allowing States
to avoid condemnation proceedings for any reason or
for no reason at all, the Third Circuit’s decision threatens to create large areas of the United States where
natural gas infrastructure cannot be built without going to extreme lengths to avoid land in which a State
has any interest. The Third Circuit’s holding on this

12
point is especially broad and alarming in that it allowed New Jersey to resist condemnation of all its
“property interests” subject to the certificate, including only two parcels in which New Jersey held a “possessory interest” and 40 in which New Jersey held
“non-possessory interests—most often, easements requiring that the land be preserved for recreational,
conservation, or agricultural use.” Penn­East Pipeline
Co., 938 F.3d at 100-101.3 The Third Circuit, itself,
acknowledged that its holding “may disrupt how the
natural gas industry, which has used the NGA to construct interstate pipelines over State-owned land for
the past eighty years, operates.” Id. at 113.
As such, the Third Circuit’s decision stands in direct opposition to the bipartisan policy goal of timely
and reliable authorization and construction of natural
Land directly owned by the State includes all State roads and
bottoms of navigable water bodies and so would be difficult for a
company to avoid in planning natural gas infrastructure, and especially in the context of a pipeline. FERC Decl. Order at 43-44
n.221. Land in which the State has a non-possessory interest
would be even more difficult to avoid. See Br. of Amici Curiae Interstate Natural Gas Assoc. of Am., et al, at 31-32, In re Penn­East
Pipeline Co., No. 19-1191, Doc. 3113239304 (3d Cir. May 15, 2019)
(observing that New Jersey has acquired interests in over 850,000
acres of land (the equivalent of 1,300 square miles) through its
Green Acres Program and the State Agricultural Development
Committee’s activities related to farmland and that selling or donating a property interest through the Green Acres Program is as
simple as filling out a two-page form, which is available online).
See also Plaintiff’s Response in Support of its Motion for an Order
of Condemnation and for Preliminary Injunction at 6, Columbia
Gas Transmission, LLC v. 0.12 Acres of Land, More or Less, No.
1:19-cv-01444-GLR (D.Md. July 8, 2019) (stating that “every single one” of Columbia Gas Transmission’s FERC-regulated interstate pipeline projects in North America, which together transport
gas through nearly 10,000 miles of pipeline in ten States, crosses
and/or collocates with State-owned property or property interests).
3

13
gas infrastructure. In 2012, President Obama issued
Executive Order 13604, which recognized the need to
“make pipeline infrastructure a priority, ensuring the
health, safety, and security of communities and the
environment while supporting projects that can contribute to economic growth and a secure energy future.” 77 Fed. Reg. 18887 (Mar. 22, 2012). Executive
Order 13604 encouraged federal agencies to “execute
Federal permitting and review processes with maximum efficiency and effectiveness…[to] provide a
transparent, consistent, and predictable path for both
project sponsors and affected communities.” Id. In
2017, President Trump issued Executive Order 13766,
which reinforced the federal policy of “expedit[ing], in
a manner consistent with law . . . approvals for all infrastructure projects, especially projects that are a
high priority for the Nation, such as . . . pipelines.” 82
Fed. Reg. 8657 (Jan. 24, 2017). Later in 2017, President Trump issued Executive Order 13807, which
calls for “coordinated, consistent, predictable, and
timely” authorization processes “in order to give public and private investors the confidence necessary to
make funding decisions for new infrastructure projects.” 82 Fed. Reg. 40463 (Aug. 15, 2017).
The decision below represents a significant retreat
from these policy goals. By effectively giving States
the power to halt federally-approved natural gas infrastructure projects, the Third Circuit’s interpretation inserts uncertainty and unreliability into a process meant to be streamlined and efficient. Under
these circumstances, it is to be expected that development of U.S. natural gas infrastructure would suffer,
as companies would be discouraged from going through
the lengthy and costly FERC approval process to obtain a certificate of public convenience and necessity
that can be nullified by a State for any reason.

14
III. 
THE DECISION BELOW WOULD HAVE
DETRIMENTAL EFFECTS FOR SKILLED
CONSTRUCTION WORKERS AND LOCAL
COMMUNITIES, WHICH OTHERWISE BENEFIT FROM NEW NATURAL GAS INFRASTRUCTURE.
Natural gas infrastructure produces numerous
tangible benefits in affected communities. As recognized by Congress in passing the NGA, consumers
rely on sound and efficient natural gas infrastructure
to keep supply steady and affordable. At the same
time, the natural gas industry relies upon predictability in the approval process to remain viable. But
it is not only corporate bottom lines that are affected
when natural gas infrastructure projects are blocked
or subjected to extreme uncertainty. Amici represent
the union workers who construct these vital infrastructure projects and rely on their availability to
earn necessary wages and benefits. The economic activity created by construction also ripples through local communities in the form of local spending, tax
revenue, and business development.
A. The Decision Below Threatens the Livelihoods of Thousands of Americans Engaged in Natural Gas Infrastructure
Construction and Skilled Union Job Opportunities in the Industry.
As discussed above, the Third Circuit’s decision effectively allows States to veto natural gas infrastructure projects at the final stage, after projects have received all approvals required under federal and State
law. If these projects are stopped, the jobs they would
normally create—including for the Pipeline Crafts’
members—also do not materialize, causing immense
and widespread harm for American households.

15
Design and construction of the 115-mile long Penn­
East Pipeline alone is anticipated to create more than
12,160 total jobs, including 2,500 direct planning and
construction jobs, with a total of $740 million in wages.
Penn­East Pipeline Project Economic Impact Analysis
3, Econsult Solutions, Inc., Drexel Univ. School of Economics (Feb. 2015) (hereinafter “Econsult Report”).4
Penn­East has committed to fill these construction jobs
with skilled union workers from the Pipeline Crafts.
The Pipeline Crafts anticipate that its members
would work over 2.45 million hours cumulatively in
constructing the Penn­East Pipeline and associated facilities, including necessary metering and compressor
stations. The Pipeline Crafts expect that construction
of the Penn­East Pipeline would generate a total of
more than $172 million in wages and fringe benefit
contributions for pipeline workers and their families.
Included in this amount is approximately $120 million
in wages, $25.7 million in payments to provide medical
and accident benefits for pipeline workers and their
families, $25 million in payments to provide retirement, survivor and disability benefits, and $1.5 million
in payments to provide training, education, and safety
programs, including for new entrants to the industry.
These are the exact type of jobs—blue collar, skilled
jobs that provide good wages, health coverage, and
fund their own training—that are so badly needed in
today’s economy. Unfortunately, since delays and obstruction of pipeline permitting have become increasingly common nationwide over the last several years,
members of the Pipeline Crafts have seen a corresponding decline in available jobs. With major mainAfter construction, the pipeline would continue to support a
number of jobs with an annual $8.3 million in wages and a total
annual economic impact of $23 million. Econsult Report at 3.
4

16
line pipeline projects on indefinite hold due to these
delays, the Pipeline Crafts experienced a combined
37.6% decline in hours worked under the National
Pipeline Agreement in 2019 compared to 2018.
This type of decline in hours is especially harmful
for specialized pipeline workers, who are impacted severely and immediately by downturns in the industry.
Although pipeline construction jobs are often described
as “temporary,” their temporary nature is exactly what
makes them so important. Every opportunity for work
that is denied is devastating because pipeline construction workers rely on a steady supply of projects to provide complete incomes and retirement savings for
themselves and their families over the course of their
careers. When there is not enough work available,
pipeline construction workers also often lose eligibility
for health insurance through jointly-sponsored union
and employer health plans, which often require a minimum number of hours worked during set time periods, e.g., monthly or annually, to establish and maintain coverage. Similarly, retirement benefits are
computed based on length of time and/or hours worked
and so workers who experience lapses in employment
risk not accumulating sufficient pension benefits to
make ends meet during retirement.
Workers affected by the unavailability of pipeline
jobs may try to get jobs outside of the industry, but
these jobs—especially if they are not covered by a collective bargaining agreement—often do not compare
in terms of wages and benefits to the skilled pipeline
construction jobs for which they have trained. Thus,
to the extent an unemployed pipeline worker is able to
find a replacement job, that job may well provide inferior wages and benefits.
Roadblocks to pipeline construction and a corresponding decline in available jobs also make the Pipe-

17
line Crafts less able to accept new members and advance the ones they have. When there is a shortage of
jobs or uncertain timelines for permitting, unions cannot accept as many entry-level members as they would
otherwise, preventing those workers from receiving
the training and other benefits available in the unionized pipeline construction industry.
B. The Decision Below Would Deprive Local
Communities of Economic Benefits and
Energy Savings.
Roadblocks to pipeline construction also negatively
impact local communities that would otherwise prosper
from the economic surge accompanying construction
and energy savings from the increased availability of
natural gas. For example, the Penn­East Pipeline would
generate an estimated total of $1.62 billion in economic
activity. Econsult Report at 3. It would also create tax
revenue gains in Pennsylvania and New Jersey. During design and construction, it is anticipated that the
Project would be responsible for a total of $17.5 million
in personal income tax in Pennsylvania and New Jersey. Id. at 12. Part of this economic activity and tax
revenue would come from the workers on the pipeline,
who would spend their earnings largely locally, including on lodging and all the necessities of every day life.5
Local consumers also suffer when natural gas infrastructure projects are stopped. Relevant to this
case, Pennsylvania and New Jersey residents both
These economic benefits would not be restricted to the construction period. Operation of the Penn­East Pipeline in Pennsylvania and New Jersey would result in a total economic impact of
approximately $23 million on spending on labor, equipment maintenance, and supplies and nearly $200,000 in income tax revenue
to State Governments per year. Econsult Report at 14-15.
5

18
pay more for electricity than the nationwide average—20% more than the national average in the case
of New Jersey residents. See Electric Power Monthly
with Data for December 2019 Table 5.6.A, U.S. E.I.A
(Feb. 26, 2020).6 Unaffordable electricity costs are a
serious problem that can have severe consequences
for American households. For example, the U.S. Energy Information Administration found that nearly
one in three U.S. households had faced such difficulty affording the cost of residential energy in 2015
that they had either received a disconnection notice
or been forced to reduce expenditures by keeping
their homes at unhealthy or unsafe temperatures or
by foregoing other basic necessities in order to afford
energy costs. One in Three U.S. Households Faces a
Challenge in Meeting Energy Needs, U.S. E.I.A. (Sept.
19, 2018).7
It is into this environment of energy insecurity that
the Penn­East Pipeline would deliver staggering savings to energy consumers. One economic study of the
Project’s expected impact—prepared at the time it
was proposed and the approval process began—shows
that, had the pipeline been part of the local energy
infrastructure during the winter of 2013-2014, when
conditions were especially cold for a prolonged period
of time, consumers in Eastern Pennsylvania and New
Jersey would have saved an estimated $890 million in
energy costs. See Energy Market Savings: Report and
Analysis at 3, Concentric Energy Advisors, Inc. (March
2015).8 Several years later, while tied up in a long
6

pdf.
7

https://www.eia.gov/electricity/monthly/current_month/epm.
https://www.eia.gov/todayinenergy/detail.php?id=37072.

https://penneastpipeline.com/ConcentricEconomicStudy/
concentric-economic-study.pdf.
8

19
regulatory process, an updated study showed that the
Project would have continued saving consumers money—to the tune of an additional $435 million in savings in the winter of 2017-2018, when demand was
high and natural gas and electric prices were volatile.
Estimated Energy Market Savings from Additional
Pipeline Infrastructure Serving Eastern Pennsylvania
and New Jersey: Update for Winter 2017/2018 at 3,
Concentric Energy Advisors, Inc. (April 2018).9 These
energy savings, in turn, produce economic benefits in
the form of increased economic activity by the affected
consumers. In the case of the Penn­East Pipeline, a
different economic study found that every additional
$10 million in disposable income derived from energy
savings could be expected to generate an estimated
$13.5 million of total economic impact and supports
90 jobs. Econsult Report at 16.
Finally, it is worth noting that, to the extent the
Third Circuit’s decision allows States to effectively
foreclose construction of natural gas pipelines and
other infrastructure, it undercuts important federal
policy aimed at developing a modern pipeline infrastructure with the most up-to-date safety and efficiency features. In 2011, the U.S. Department of Transportation’s (“U.S. DOT”) Pipeline and Hazardous
Materials Safety Administration (“PHMSA”) issued a
“call to action” to accelerate the repair, rehabilitation,
and replacement of the highest-risk, aging pipeline infrastructure. See Pipeline Replacement Background,
U.S. DOT PHMSA (last visited March 16, 2020).10
Since that time, the number of pipelines installed behttps://penneastpipeline.com/wp-content/uploads/2018/05/
Penn­East_Concentric_Update_FINAL_4-24-2018.pdf.
9

https://www.phmsa.dot.gov/data-and-statistics/pipelinereplacement/pipeline-replacement-background.
10

20
fore 1970 that remain in operation has declined, but
still comprises approximately 33% and 45% of gas distribution mainline and hazardous liquid miles of pipeline, respectively. See Pipeline Replacement Updates,
U.S. DOT PHMSA (last visited March 16, 2020).11
These vintage pipelines are more prone to failure and
inefficiency due to inferior and outdated materials,
welding techniques, and quality control. Id.
In contrast, modern pipelines feature improved pipe
coating to protect against corrosion, welding techniques, seam inspection, pressure testing of pipe before it leaves the mill, and in-place hydrostatic pressure testing and inspection. Modern pipelines also
utilize cutting edge machinery that passes through
the pipe checking for defects like corrosion, cracking,
gouges, dents, and weaknesses in welds, among other
safety risks. Faced with an inability to build new
pipelines under the Third Circuit’s holding, pipeline
operators will have little choice but to keep using aging, less reliable pipelines that lack modern safety
features just to do their best to meet regional energy
needs, to the detriment of consumers and local communities.
Given all of these economic and other benefits of
new natural gas infrastructure and the jobs and opportunities it creates both directly and indirectly, it is
not surprising that federal policy aims to provide efficient and reliable authorization procedures. American workers and communities count on having such
procedures in place. By allowing States to stymie this
clear policy goal, the Third Circuit has done a grave
disservice to American workers and communities.

https://opsweb.phmsa.dot.gov/pipeline_replacement/by_
decade_installation.asp.
11

21
CONCLUSION
For the foregoing reasons, Amici respectfully urge
the Court to grant the petition and review the decision
below.
Respectfully submitted,
ellen o. Boardman*
Anna frIedlander
MIChael A. GIllman
o’Donoghue & o’Donoghue LLP
5301 Wisconsin Avenue, NW
Suite 800
Washington, DC 20015
(202) 362-0041
*Counsel of Record
Counsel for Amici Curiae

